HHS/OIG-Audit--"Review of Aid to Families with Dependent Children
Emergency Assistance Program, (A-07-95-01009)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Aid to Families with Dependent Children Emergency Assistance
Program," (A-07-95-01009)
February 20, 1996
Complete Text of Report is available in PDF format
(150 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report discusses the Emergency Assistance Program administered by
the Kansas Department of Social Services and Rehabilitation Services (SRS).
The objective of the review was to ascertain whether SRS practices for administering
Emergency Assistance (EA) complied with Federal requirements, and identify the
reason(s) EA costs increased from $800,00 in 1991 to $18 million in 1994. We
identified unallowable EA costs totaling $1,260,351 (Federal financial participation
or FFP $630,175). Based on practices in effect, we concluded that other EA costs
totaling $18,969,612 (FFP $9,484,806) may also include unallowable costs. We
recommended that SRS: (1) implement controls to ensure that costs charged to
EA comply with Federal regulations, and (2) make financial adjustments for costs
improperly claimed.